Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




    TRIBAL CONTRACTING
 FOR INDIAN HEALTH SERVICES




                   JUNE GIBBS BROWN
                   Inspector General

                       MARCH 1996
                      OEI-09-93-00350
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the Office
of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions,
or civil money penalties. The OI also oversees State Medicaid fraud control units which investigate
and prosecute fraud and patient abuse in the Medicaid program.

                  OFFICE OF EVALUATION AND INSPECTIONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. The report was prepared in the San Francisco regional
office under the direction of Kaye D. Kidwell, Regional Inspector General, and Paul A. Gottlober,
Deputy Regional Inspector General. Project staff included:

SAN FRANCISCO                                                           HEADQUARTERS

Robert Gibbons                                                  Alan Levine, Program Specialist

Don Loeb

Brian Pattison

                   EXECUTIVE SUMMARY


PURPOSE

This inspection provides feedback from Indian tribes on how the Indian Health Service can
best support and enhance 638 contracting.

BACKGROUND

The Indian Health Service’s (IHS) Office of the Director asked that the Office of Inspector
General (OIG) evaluate efforts by IHS and Indian tribes to implement the Indian Self-
Determination and Education Assistance Act, Public Law (P.L.) 93-638.1

Within the Department of Health and Human Services, IHS is the primary provider of
health care to tribes. Through a contract, tribes can receive the money that IHS would
have used to provide direct health services for tribal members. Tribes can use these funds
to provide directly, or through another entity, a broad range of health services. This option
was part of P.L. 93-638 and is commonly known as "638 contracting."

The extent of 638 contracting varies widely among tribes and IHS areas, ranging from as
much as 91 percent to as little as 1 percent of an Area Office’s budget. According to 1994
IHS data, tribes and tribal organizations operate 9 hospitals and 342 health centers,
stations, and clinics. The IHS operates 119 health centers, stations, and clinics and
oversees 40 hospitals. Tribes contract for nearly 32 percent of the total IHS budget, which
is approximately $1.7 billion.2

We conducted telephone and in-person interviews regarding a wide range of
638 contracting issues with 70 tribes, 12 tribal organizations (representing an additional
154 tribes), 44 IHS headquarters and Area Office staff, and 10 Indian health boards. The
majority of these interviews were conducted from January through April 1995. Our
sample included the universe of noncontracting tribes and a stratified sample of contracting
tribes.

FINDINGS

          Because tribes view 638 contracting as an opportunity to customize and improve
          health care for their communities, almost 75 percent of them want to increase the
          number and scope of their contracts.



    1
       Indian tribe means any Indian tribe, band, nation, or other organized group (including any Alaska
Native village or corporation) that is eligible for the special programs and services provided by the United
States to Indians because of their status as Indians.
    2
        This figure includes all appropriations except facilities, which totals $279 million.


                                                          i
       In addition to contracting for health services, one-half of the tribes want to contract
       for their shares of Area Office and headquarters functions.

       Although the 1994 amendments enable tribes to increase their level of
       contracting, many of the smaller noncontracting tribes face barriers that the
       amendments do not address.

       The barriers include tribes’ relatively small size, geographic isolation, program
       funding concerns, termination fears, and, what they perceive to be, reluctance on
       the part of some IHS staff to support or promote contracting.

       Many tribes remain poorly informed about the 638 contracting process.

       Noncontracting tribes and tribes that contract through tribal organizations lack basic
       knowledge about 638 contracting and related IHS initiatives. They are less
       knowledgeable than contracting tribes on subjects such as the 1994 amendments,
       the Indian Health Design Team, the tribal management grant program, and IHS
       contracting staff.

       Well-informed tribes rely on Indian health boards, consulting firms, other tribes,
       and attorneys for 638 contracting information, technical assistance, training, and
       contract monitoring.

RECOMMENDATION

The IHS should continue and expand its efforts to increase tribal awareness and foster
self-determination.

The goal of the P.L. 93-638 legislation and subsequent amendments is to enable tribes to
exercise their self-determination rights. In order to accomplish this, tribes need to be fully
informed and administrative barriers must be eliminated. The IHS can best serve tribal
self-determination efforts by:

       continuously informing tribes about their 638 contracting options,

       helping tribes increase their use of non-IHS sources of information, technical

       assistance, training, and contract monitoring, and

       facilitating the transfer of health services and administrative functions.


The IHS could take a number of actions to improve tribal awareness, including:
(1) providing 638 contracting orientations to tribes that need them, (2) simplifying
communications and increasing personal contact, (3) distributing individual tribal budget
information annually, and (4) informing tribes of their option to use existing community
health services.




                                              ii
AGENCY COMMENTS

The IHS provided comments on the draft report and agreed with our recommendation to
continue and expand its efforts to increase tribal awareness and foster self-determination.
We have made minor revisions to the report based on IHS’ technical comments. As IHS
mentioned in its comments, it has initiated multiple communication activities including use
of the Internet to better convey contracting and other information to Indian tribes. In our
review of the Internet home page, we were impressed with the design of the page and the
quantity of information. The home page includes a section entitled "IHS Communications
Page" that gives detailed and up-to-date information on legislative activities, agency
operations such as the Indian Health Design Team, and comments by leading IHS officials.
The full text of IHS’ comments appears in Appendix B.




                                            iii
                        TABLE OF CONTENTS


                                                                                                             PAGE


EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


             Customized and improved health care . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


             Increased contracting and barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


             Lack of knowledge . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


             Use of non-IHS sources for administrative functions . . . . . . . . . . . . . . . . . 10


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


A: Detailed Description of Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                                INTRODUCTION


PURPOSE

This inspection provides feedback from Indian tribes on how the Indian Health Service can
best support and enhance 638 contracting.

BACKGROUND

The Indian Health Service’s (IHS) Office of the Director asked that the Office of Inspector
General (OIG) evaluate efforts by IHS and Indian tribes to implement the Indian Self-
Determination and Education Assistance Act, Public Law (P.L.) 93-638.3

Indian Self-Determination and Education Assistance Act

In 1975, Congress gave tribes the option to contract for programs provided by the
Secretaries of the Department of Health and Human Services and the Department of
Interior for the benefit of Indians because of their status as Indians.4 This option was
part of P.L. 93-638 and is commonly known as "638 contracting." In developing
P.L. 93-638, Congress recognized its responsibility to:

          ...respond to the strong expression of the Indian people for self-
          determination by assuring maximum Indian participation in the direction of
          educational as well as other Federal services to Indian communities so as to
          render such services more responsive to the needs and desires of those
          communities.5

Within the Department of Health and Human Services, IHS is the primary provider of
health care to tribes.6 Through contracts, tribes can receive the money that IHS would
have used to provide direct health services for tribal members. Tribes can use these funds
to provide directly, or through another entity, a broad range of health services. The
health services could include community health representatives, treatment for alcohol and
substance abuse, outpatient clinics, hospitals, and contract health services dollars, which
are used to pay for care rendered by non-IHS providers (i.e., referrals to specialists and


    3
        Indian tribe means any Indian tribe, band, nation, or other organized group (including any Alaska
Native village or corporation) that is eligible for the special programs and services provided by the United
States to Indians because of their status as Indians.
    4
        Indian means a person who is a member of an Indian tribe.
    5
        P.L. 93-638, Section 3(a), as amended.
    6
      The Bureau of Indian Affairs within the Department of the Interior is responsible for education, law
enforcement, and tribal government activities.


                                                       1
private hospitals). Tribes decide whether they want to contract under P.L. 93-638, and a
tribe’s informed decision not to contract is an equal expression of self-determination.

Subsequent amendments to P.L. 93-638

Congress significantly amended P.L. 93-638 in 1988. These amendments (1) added

timeframes for IHS and the Bureau of Indian Affairs (BIA) to approve or decline contract

proposals and (2) clarified that most contracts would be exempted from the cumbersome

Federal acquisition regulations which govern procurement contracts. The amendments also

required IHS and BIA to promulgate new regulations with the active participation of tribes

within 10 months. These draft regulations were not published until

January 1994.


The 1988 amendments further allowed tribes to use another funding option commonly

known as self-governance. A self-governance tribe is relatively free from IHS oversight in

both the design of its programs and the way it utilizes and distributes program funds.

These tribes receive an annual lump-sum amount for their health programs. Self-

governance is a demonstration program for IHS but is permanent for BIA.


At the request of tribes, Congress further amended the 638 contracting law in 1994. The

1994 amendments supersede the January 1994 draft regulations. These new amendments

give tribes almost the same latitude under contracting as they have under self-governance.

Among other things, tribes can (1) contract for their shares of IHS Area Office and

headquarters functions, (2) shift funding from one health program to another, (3) redesign

health programs, (4) utilize a simple model format for every contract, and (5) receive

annual lump-sum payments. The amendments limit the Department of Health and Human

Services and the Department of Interior to promulgating regulations for a few specified

areas and require that they produce these regulations within 18 months. The Indian Self-

Determination Negotiated Rulemaking Committee, comprised of tribal and Federal

representatives, oversaw the development of the draft regulations which were published in

the Federal Register on January 24th, 1996.


Tribal contracting efforts

The extent of 638 contracting varies widely among tribes and IHS areas. Some tribes
contract for millions of dollars for the construction, renovation, and operation of entire
hospitals and outpatient clinics. Tribes also contract for contract health services dollars to
pay for referrals to outside specialists and often have small contracts for emergency
medical services and community health representative programs. According to 1994 IHS
data, tribes and tribal organizations operate 9 hospitals and 342 health centers, stations, and
clinics. The IHS operates 119 health centers, stations, and clinics and oversees
40 hospitals. Tribes contract for nearly 32 percent of the total IHS budget, which is
approximately $1.7 billion.7 As the map on the next page shows, the level of


   7
       This figure includes all appropriations except facilities, which totals $279 million.


                                                        2
638 contracting among Area Offices ranges from as much as 91 percent to as little as
1 percent of their annual budgets.8




IHS contracting roles and responsibilities

Within IHS, 12 Area Offices have the primary responsibility for working directly with
tribes on 638 contracting. 9 Staff in these Area Offices are responsible for (1) informing


  8
     All figures are based on 1994-1995 data except for the number of IHS Area Office employees which
is based on data from January 1996. Further, the number of IHS Area Office employees does not include
current reduction in force activities in three Area Offices.

  9
      The 12 Area Offices are: Aberdeen, Albuquerque, Alaska, Bemidji, Billings, California, Nashville,
Navajo, Oklahoma City, Phoenix, Portland, and Tucson. We have included Tucson as an Area Office since
it has contracting responsibilities for the two tribes in its area.��


                                                       3
tribes about the contracting process, (2) providing technical assistance, and (3) overseeing
both programmatic and financial aspects of specific contracts.

The IHS uses a number of methods to share 638 contracting information with tribes. The
IHS headquarters sends "Dear Tribal Leader" letters and holds annual IHS/tribal
consultation conferences. In addition, the IHS contracts with the National Indian Health
Board to provide consultation and information dissemination services, including a quarterly
newsletter. The board is composed of tribal representatives from each area. The board
disseminates information both directly to tribes and through its local chapters, which are
called area Indian health boards and inter-tribal councils. These local boards vary in size,
organization, and funding levels. The IHS Area Office staff communicate directly with
tribes through letters, faxes, telephone calls, and area meetings, and also route information
through the Indian health boards and inter-tribal councils. Within an area office, the
contract proposal liaison officer is the primary contact person for all
638 contract proposals and is responsible for the dissemination of information to tribes.
Project officers communicate with their respective contracting tribes regarding more
detailed contract and programmatic issues. Contracting officers award the contracts and
oversee and monitor the financial aspects of each contract.

METHODOLOGY

We conducted telephone and in-person interviews regarding a wide range of
638 contracting issues with tribal leaders, tribal organization officials, IHS headquarters
and Area Office staff, and Indian health board directors. We completed 70 tribal,
12 tribal organization, 44 IHS, and 10 Indian health board interviews. The tribal
organizations we interviewed provide services to an additional 154 tribes. We interviewed
the universe of noncontracting tribes and a stratified sample of contracting tribes. The
majority of these interviews were conducted from January through April 1995. For each
interview, the tribal leader or tribal organization director designated specific respondents to
represent the 638 contracting views of the tribe or organization. The respondents included
tribal leaders, business officers, and health directors who were interviewed individually or
as a group. The statistics in this report are based on our sample of tribes, not on a
projection to the total population. Appendix A contains a detailed description of the
methodology.

For most of this report, our findings are based on the distinctions between contracting and
noncontracting tribes. For some issues, however, the data revealed important differences
among groups of tribes. Therefore, we conducted additional analysis to refine the
findings and provide information necessary for IHS to be responsive to all tribes. As a
result, in a few instances, we made a distinction between contracting tribes that contract
with IHS directly and those that contract through tribal organizations to receive health
services.




                                               4

                                  FINDINGS


TRIBES VIEW 638 CONTRACTING AS AN OPPORTUNITY TO CUSTOMIZE
AND IMPROVE HEALTH CARE FOR THEIR COMMUNITIES

According to tribes, 638 contracting for health services can result in (1) improved
quality, (2) expanded coverage, and (3) easier access. Contracting enables tribes to
accomplish these changes by allowing them to:

       improve the management of their health programs,
       redesign programs to address local needs,
       develop and use alternative funding sources, and
       access non-IHS health care systems.

Once tribes take control of their health programs, they can manage them in ways that
dramatically improve services. They can also more easily supplement IHS funding.
Tribes can (1) increase their third party billing, (2) redesign parts of direct health care
programs, (3) improve their contract health services management, and (4) utilize other
sources such as State funding, grants, and tribal gaming funds. For example, one IHS
official described a tribe that used 638 contracting to turn a run-down clinic into a "plush"
and fully-functioning outpatient clinic without additional IHS funds. The tribe increased
its third party funding by serving private paying members of the community. When
another tribe took over its contract health services dollars, it was able to negotiate better
rates with local providers and increase the number of providers willing to take its patients.
Many IHS Area Office staff also believe that some tribes manage their health care better
and are able to respond to local needs more quickly and effectively than IHS ever could.

To address access and/or quality concerns, some tribes use 638 contracting funds to
purchase non-IHS health care in their local communities. During our interviews,
35 percent of contracting tribes and 22 percent of noncontracting tribes volunteered that
they would prefer to use local providers instead of IHS health care systems but were not
aware of their options to do so. The following are examples of tribes that have used
638 contracting to purchase non-IHS health care:

       One tribe purchases primary care services from local physicians for a fixed monthly
       fee. Tribal members benefit from this arrangement, because the closest IHS
       outpatient clinic is 70 miles away.

       Another tribe sponsors a weekly night clinic, so tribal members do not have to
       drive 20 miles to the nearest IHS clinic.

       Several tribes purchase health maintenance organization or preferred provider
       organization insurance plans that provide a comprehensive range of services for all
       of their members.



                                              5

INCREASED CONTRACTING, THE GOAL OF MORE THAN HALF OF THE
TRIBES, WILL BE EASIER FOR SOME THAN OTHERS

The majority of tribes want to increase their level of contracting for both health services
and IHS administrative functions. Tribes want to contract, among other reasons, because
they are dissatisfied with IHS health care and administrative services. Following the
1994 amendments, contracting tribes face few barriers to additional contracting, but
noncontracting tribes still face substantial barriers.

Most tribes want to increase their level of contracting for direct health programs and
IHS administrative functions

Almost three-quarters of both contracting and noncontracting tribes want to contract for
more health services, but few have specific plans.10 Some of these tribes want to contract
for outpatient, mental health, alcohol and substance abuse, and dental services. They also
want to assume responsibility for their contract health services dollars. At present, few
tribes are considering 638 contracting for the remaining IHS hospitals.

Most tribes are dissatisfied with the health care they receive directly from IHS. More than
half of contracting tribes and one-third of noncontracting tribes rate their IHS health care
as below average (lower than "3" on a scale of 1 to 5).11 In contrast, only
18 percent of contracting tribes rate their 638 contracted health care as below average.
Tribes are dissatisfied with IHS health care for several reasons including the waiting time,
the travel distance, and, in their opinion, the poor attitudes of some IHS health care
providers. One tribe complained that, even with an appointment, tribal members have to
wait up to 8 hours at the IHS hospital for a primary care visit. Another tribe that uses the
same IHS hospital claimed that supplies are outdated and there are too many interns and
not enough experienced physicians. Some tribes also noted that the IHS fiscal
intermediary that processes contract health services claims is so slow that providers have
referred tribal members to collection agencies and refused to see additional patients.

One-half of tribes want to contract for their shares of Area Office and headquarters
functions.12 These functions include, among other things, technical assistance, training,
monitoring, and information dissemination. Some tribes mentioned that they plan to
contract selectively for these shares depending on the cost of hiring outside sources to
perform the functions.




    10
      This statistic does not include tribes that are fully contracting or are now part of the self-governance
program.
    11
         Ibid.
    12
      This statistic does not include tribes that already contract for their tribal shares or tribes that did not
know of their right to do so at the time of our interviews.


                                                         6
The 1994 amendments will allow many tribes to increase their level of contracting with
few barriers

The 1994 amendments will greatly benefit tribes that want to increase contracting. Of the
contracting tribes in our sample, 80 percent think that the amendments will make it easier
for them to contract. The amendments have given tribes much more control over the
638 contracting process, both for health services and for tribal shares of Area Office and
headquarters functions. While some tribes and IHS staff see the need for some technical
revisions to clarify the differences between contracting and self-governance, the response
to the amendments was overwhelmingly positive. Some contracting tribes believe now that
nothing stands in the way of increased contracting.

Noncontracting tribes face several barriers that have not been addressed by the
1994 amendments

Noncontracting tribes face many barriers including tribal size and geographic location,
program funding issues, tribal termination fears, and IHS staff attitudes.

Size of Tribe

Small tribes have a more difficult time contracting for their health services. Almost three-
quarters of noncontracting tribes have fewer than 500 members each. These small tribes
are less likely to contract, because they lack administrative staff and management
capabilities. Also, they are concerned that available 638 funding may be insufficient to
provide complete health services to their tribal members.

Small tribes are not able to take advantage of economies of scale, and political differences
can prevent them from forming consortiums. Small tribes also tend to have less-developed
governmental systems, and tribal council turnover may impede the contracting process.

Geographic Isolation

Geographically isolated tribes often do not attempt to contract, because it is very difficult
for them to recruit providers and they face almost insurmountable transportation problems.
Remote locations also make it difficult for tribes to form consortiums with other tribes and
to participate in 638 contracting meetings and training. Some tribes are located in such
remote areas as the bottom of the Grand Canyon and the northern slope of Alaska.

Funding Issues

Many noncontracting tribes perceive various funding issues as barriers. Some tribes will
not contract for what they believe to be underfunded IHS programs and are not convinced
that efficiencies can be gained through contracting. Other tribes complained about
inequitable funding distribution. These tribes believe that Area Offices allocate funds
differently and that some tribes and areas are favored. Still other tribes and Area Office



                                              7

staff noted what they called "double-dipping" problems which create inefficiencies and
affect tribal perceptions of contracting. This double-dipping occurs when tribes take their
share of funds from a clinic or hospital that serves multiple tribes while their members
continue to use the facility’s services.

Fear of Termination

More than half of the tribes are concerned that increased contracting will lead to
termination of Federal funding for health services. Some tribes in the Aberdeen and
Billings areas flatly refuse to contract for more health services until the termination issue is
resolved. Some Area Office staff, including a few contract proposal liaison officers, also
believe that contracting may lead to the termination of Federal support. Tribal suggestions
to alleviate these fears ranged from fully funding Indian health care to creating a separate
51st Indian State, making one separate Federal Indian Department, or making health care
an entitlement rather than a discretionary program.

IHS Staff Attitudes

Almost all of the tribal and IHS respondents believe that IHS should be proactive in
informing tribes of their 638 contracting options. Many tribes and some IHS employees
even suggested that IHS encourage tribes to contract. However, most Area Offices supply
detailed information on contracting only when tribes request it. Both tribal and Area
Office staff believe that some IHS staff may be reluctant to promote or authorize
maximum contracting as they fear losing their Federal jobs.

MANY TRIBES REMAIN POORLY INFORMED ABOUT THE
638 CONTRACTING PROCESS

The data revealed important distinctions among tribes’ levels of knowledge and needs for
assistance. Therefore, we conducted additional analysis to refine the findings and provide
information necessary for IHS to be responsive to all tribes. Based on our additional
analysis and for purposes of clarifying this finding, we have subdivided the contracting
tribes into (1) tribes that contract directly with IHS and (2) those that contract through
tribal organizations.

Many noncontracting tribes and tribes that contract through tribal organizations lack basic
knowledge about 638 contracting and IHS initiatives. In contrast, contracting tribes tend to
be very knowledgeable about these subjects. Further, 82 percent of noncontracting tribes
believe they do not have enough information to make informed decisions regarding
contracting. To assess tribes’ knowledge, we asked a series of questions on the
1994 amendments, the Indian Health Design Team, the tribal management grant program,
and the Area Office contracting staff.




                                               8

1994 Amendments

Although most tribes had heard of the 1994 amendments at the time of our interviews,
few noncontracting tribes and tribes that contract through tribal organizations understood
them, as illustrated in the following chart.13 While these amendments passed in October
1994, 18 percent of noncontracting tribes and 24 percent of tribes that contract through
tribal organizations had not heard of the amendments. Furthermore, 37 percent of the
tribes in our sample who knew of the amendments had not heard of them until January
1995 or later, 3 months after passage. Interestingly, 2 IHS Area Office project officers
had not heard of the amendments 1 month after they passed.




Indian Health Design Team

In late 1994, the Indian Health Design Team began to explore IHS organizational changes
that will be needed in the future. The team is comprised of two-thirds tribal
representatives and one-third senior IHS staff. The team surveyed IHS employees and
tribes about their opinions on IHS reorganization using a one-page questionnaire. Few
tribes responded.




  13
       These interviews were conducted from January through April 1995.

                                                        9
Tribal Management Grant Program

The tribal management grant program is a $5 million competitive grant program designed
to help tribes build the capacity to contract or decide whether to contract. Tribes typically
use these funds to hire consultants, conduct feasibility studies, train staff, purchase
computers, and improve financial and program systems.




Area Office Contracting Staff

Without knowledge of the roles and responsibilities of key Area Office staff such as the
contract proposal liaison officer and project officer, tribes may not know whom to
approach when considering contracting.




TRIBES RELY ON ORGANIZATIONS OTHER THAN IHS FOR
638 CONTRACTING INFORMATION, TECHNICAL ASSISTANCE, TRAINING,
AND CONTRACT MONITORING

While IHS information sharing methods are effective for some tribes, many tribes are
dissatisfied with these methods and complain of the lack of a formal feedback mechanism.
As a result, many contracting tribes utilize non-IHS sources for various administrative
services. Tribes sometimes use non-IHS funds to purchase services from the private
sector. With the passage of the 1994 amendments, tribes are able to contract for tribal
shares, giving them additional funds to access these outside sources.

                                               10
Many tribes are dissatisfied with the 638 contracting information that IHS now provides

More than half of both noncontracting and contracting tribes rate the information they
receive from IHS as below average. Tribes are unhappy with the quality, quantity, and
timeliness of the information. Furthermore, tribes are not satisfied with the methods IHS
uses to share information, noting the absence of 638 contracting orientations, varying
Indian health board systems, incomplete budget information, few local meetings, poor
written communication, and a lack of formal feedback mechanisms.

638 Contracting Orientations

Although 638 contracting has existed for 20 years, many tribes still need a basic
orientation on the law, process, and options. More than half of noncontracting tribes need
this kind of orientation. In contrast, contracting tribes want specialized training on
programmatic and financial issues and on the 1994 amendments. Area Office staff
concurred, noting that many tribes, new tribal councils, and new health directors do not
get the necessary training on 638 contracting and IHS responsibilities.

Tribes, as well as IHS staff, believe that a training videotape could provide tribes with
basic 638 contracting information. While more than 80 percent of noncontracting and the
majority of contracting tribes agree that a videotape should be distributed to tribes, only
9 percent of all tribes have seen or heard of the IHS 1990 videotape on 638 contracting.
Area Office staff who have seen the video agree that, although dated, it could be useful
for many tribes. This video was produced in response to a recommendation from the
1990 Quality Management P.L. 93-638 Implementation Work Group.

Indian Health Boards

Area Indian health boards and inter-tribal councils vary in how effectively they distribute
638 contracting information to tribes. The IHS formally contracts with the National
Indian Health Board to disseminate information to tribes, area Indian health boards, and
inter-tribal councils. Area Office staff send information directly to these organizations as
well. The area Indian health boards vary in strength, size, organization, and
effectiveness. In some locations, they are well funded and even contract for additional
administrative and direct health programs, while in other locations they have little staff
and few responsibilities. The efforts of the Indian health boards are not always
coordinated with IHS headquarters and Area Offices. Therefore, some tribes receive
duplicate copies of information, while others receive no information at all.

Budget Information

Tribes and Area Office staff often have difficulty obtaining complete funding information
for 638 contracting. Some tribes complained that they were not given timely and accurate
data. Area Office staff added that they often encountered internal problems in compiling
complete budget data. Some contract proposal liaison officers receive incomplete
information from area program and service unit staff and have to piece together complete

                                                11

budgets for tribes. Typically, the original budget information is missing costs for
peripheral items such as transportation and phone service. Although the law requires that
IHS annually provide tribes with complete funding information, few Area Offices do so
unless requested.

Written Communication

Tribes are dissatisfied with the information IHS mails to them for several reasons:

  �	   The information is not written in lay terms. For example, a respondent noted that
       "one usually needs to be an attorney to understand the documents from IHS."

  �	   The quantity of information is overwhelming, not identified by priorities, and lacks
       personal follow-up. Many tribes complained that IHS sends significant amounts of
       written information without any personal follow-up to ensure that they understand
       the information and its importance.

  �	   Although one-quarter of contracting tribes have access to electronic mail, IHS does
       not use it to communicate with them. Further, IHS does not foster development of
       state-of-the-art computer and telecommunication systems.

National and Area Meetings

Because of travel costs and logistics, tribes sometimes are unable to attend national and
area meetings. The IHS routinely convenes (1) an annual national IHS/tribal consultation
conference and (2) quarterly areawide meetings. Recently, IHS has begun to host smaller
meetings within and across areas to reduce tribes' transportation costs and to increase
personal contact. According to some tribes, these meetings foster better attendance, and
tribal representatives are more likely to speak up in front of smaller groups of people they
know.

IHS Feedback Mechanisms

The IHS does not routinely ask tribes for customer feedback about the quality of IHS
information, training, and technical assistance. Almost all tribes and most IHS employees
believe IHS should conduct regular customer surveys. Two Area Offices use an
evaluation survey form that allows tribes to rate the technical assistance and training they
receive from IHS; however, like all other Area Offices, most feedback occurs at the time
of the program evaluation. Asking for feedback during the program evaluation presents a
possible conflict of interest, as tribes may be hesitant to critique the agency that is
evaluating them. Tribal and IHS suggestions ranged from having regular survey forms and
phone calls to including tribal reviews in individual IHS employee evaluations. The
IHS is working on a 3-year customer survey initiative that may address this need.




                                               12

Tribes rely on Indian health boards, consulting firms, other tribes, and attorneys for
638 contracting information

Ninety-six percent of contracting tribes and 71 percent of noncontracting tribes use non-
IHS sources in addition to IHS. More than one-half of the tribes that are familiar with the
1994 amendments learned about them from a source other than IHS. Even Area Office
staff rely on non-IHS sources for 638 information such as codified copies of the
1994 amendments. Many IHS Area Office staff admitted that tribes often know more than
they do. The chart below illustrates which sources tribes most frequently use for
contracting information.




Many tribes consider these sources superior to IHS for 638 contracting information.
More than half of contracting tribes and 18 percent of noncontracting tribes rated another
source of information better than IHS.




                                              13

Most tribes want to purchase technical assistance and training from sources other than
IHS

Almost three-quarters of contracting tribes and 69 percent of noncontracting tribes want
IHS to provide funding so they can contract with sources other than IHS for technical
assistance and training. Some of these same tribes also want IHS to continue providing
some technical assistance and training.

Some tribes want IHS Area Offices to provide the initial orientation on the
638 contracting process. Then, following the initial orientation, they want to have
funding they can use to hire non-IHS sources for more detailed training and technical
assistance specific to their needs. These tribes prefer using outside sources to explore the
feasibility of contracting for various health services.

Some tribes and IHS employees want IHS to change the way it monitors tribal health
programs

Nine percent of contracting tribes volunteered that they want to use professionals such as
the Joint Commission on the Accreditation of Healthcare Organizations (JCAHO) to
conduct their program evaluations instead of IHS. The JCAHO offers voluntary
accreditation programs involving on-site surveys of health care organizations. As an
example, one of the tribes routinely has its 638-contracted health services reviewed by a
State agency as well as IHS. According to the tribe, the State agency uses higher
standards than IHS--much more like JCAHO's standards--in its review. This provides the
tribe with valuable information about how to improve its health services.




                                               14

                        RECOMMENDATION

THE IHS SHOULD CONTINUE AND EXPAND ITS EFFORTS TO INCREASE
TRIBAL AWARENESS AND FOSTER SELF-DETERMINATION

The goal of the P.L. 93-638 legislation and subsequent amendments is to enable tribes to
exercise their self-determination rights. In order to accomplish this, tribes need to be
fully informed and administrative barriers must be eliminated. The IHS can best serve
tribal self-determination efforts by:

Continuously informing tribes about their 638 contracting options

Tribes are likely to increase 638 contracting when they are more aware of their options.
The IHS could take a number of actions to improve tribal awareness, including:

 �     Providing 638 contracting orientations to tribes that need them

       These orientations could include basic information about 638 contracting such as
       the law, the roles of IHS staff, health care options, other sources of technical
       assistance and training, and the steps needed to proceed with contracting. One
       component of the orientation could be distribution of the 1990 video on
       638 contracting along with information about the impact of the
       1994 amendments.

 �     Simplifying communications and increasing personal contact

       Written communications to tribes should be directed to the appropriate tribal staff,
       and the language should be such that all can understand. Further, IHS should
       increase its personal contact with tribes by (1) having more area and local
       meetings, (2) following dissemination of significant written materials with
       telephone calls, and (3) encouraging use of electronic mail and other emerging
       communication technologies.

 �     Distributing individual tribal budget information annually

       The annual budget information should include each tribe's share of health services
       and IHS Area Office and headquarters functions.

 �     Informing tribes of their option to use existing community health services

       The IHS could give each tribe a description of all options available to them. This
       description would include an explanation of the tribe's option to use
       638 contracting to pay for existing non-IHS health services. The IHS could help
       tribes that are interested in these existing community services to learn from other
       tribes that already have used this option.


                                              15

Helping tribes increase their use of non-IHS sources of information, technical
assistance, training, and contract monitoring

The IHS should inform tribes (particularly noncontracting tribes) about other sources of
expertise and how tribes can get IHS funding to use these sources. For example, the
tribal management grant program and tribal shares of IHS administrative functions can be
used to fund feasibility studies, training sessions, technical assistance, and health program
evaluations. The IHS could act as an information clearinghouse about these sources of
expert assistance.

Facilitating the transfer of health services and administrative functions

Many tribes are ready to contract for more health services and Area Office and
headquarters functions. The IHS should (1) provide complete budgetary information,
(2) distribute the funds to interested tribes, and then (3) reduce staff and reorganize
accordingly.




                                                16

                                   APPENDIX A


                    DETAILED DESCRIPTION OF METHODOLOGY

We randomly selected our sample of tribes through a four-step process:

1.      We divided the total population of tribes into two groups: (1) tribes that
        contract under 638 for health services and (2) tribes that either do not contract or
        contract only for community health representative and/or emergency medical
        services programs (hereafter referred to as "noncontracting tribes").

2.      We divided the Area Offices into 3 groups based on the percentage of each Area
        Office's budget that is contracted under 638. We assigned the "contracting" tribes
        (from step 1) to these three groups according to their Area Office.

3.      We randomly selected 20 tribes from each of the 3 "contracting" strata. We
        selected all 34 of the "noncontracting" tribes.

4.      If the tribe was contracting through a tribal organization, we interviewed the
        organization as well. This resulted in interviews with 12 tribal organizations.

The four groups (or strata) of tribes are illustrated in the following table:




                                               A - 1

The response rate was 74 percent (70 interviews completed out of 94). The majority of
non-responders were noncontracting tribes and tribes that contract through tribal
organizations. Our fieldwork spanned 4 months, since many tribes were extremely
difficult to contact and interview.

Out of the 12 IHS Area Offices, our sample contained tribes from 10 of them. For each
of these 10 Area Offices we attempted to interview a representative from the area Indian
health board. We also interviewed IHS officials from the respective Area Offices
including project officers, contracting officers, contract proposal liaison officers, and area
directors.




                                               A - 2

                                     APPENDIX B

                                      AGENCY COMMENTS

The IHS provided comments on the draft report and agreed with our recommendation to 

continue and expand its efforts to increase tribal awareness and foster self-determination. We 

have made minor revisions to the report based on IHS' technical comments. As IHS mentioned 

in its comments, it has initiated multiple communication activities including use of the Internet to

better convey contracting and other information to Indian tribes. In our review of the 

Internet home page, we were impressed with the design of the page and the quantity of 

information. The home page includes a section entitled "IHS Communications Page" that gives

detailed and up-to-date information on legislative activities, agency operations such as the Indian

Health Design Team, and comments by leading IHS officials. The full text of IHS' comments 

begins on the next page.





                                                 B - 1

B - 2

B - 3

B - 4

